                                                                             Report No. DODIG-2014-098



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              J U LY 3 1 , 2 0 1 4




                     The Army Did Not Properly Account
                     For and Manage Force Provider
                     Equipment in Afghanistan




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                The Army Did Not Properly Account For and Manage
                                Force Provider Equipment in Afghanistan


July 31, 2014                                     Findings (cont’d)

Objective                                         incorrect ARCs to 17 FP components, valued at $41.96 million,
                                                  which increased the risk that the equipment would be lost,
We determined whether DoD properly                destroyed, or abandoned in theater.
accounted for Force Provider (FP) equipment
in Afghanistan. An FP module is a compilation
of components that support 600 personnel.         Recommendations
                                                  Among other recommendations, we recommend that DA G-4

Findings                                          identify and account for all nonexpendable FP components by
                                                  serial number and revise AR 735-5 to ensure items are correctly
The Army did not properly account for the         assigned accounting requirements codes.
62 FP modules deployed to Afghanistan from
2001 through 2013, valued at approximately        We also recommend that the Commanding General, Army Materiel
$424.57 million. This occurred because the        Command, establish guidance that lists the responsibilities
Army did not verify that FP equipment was         regarding the accountability of FP equipment and require
recorded on the receiving unit’s accountability   401st AFSB to conduct quarterly reconciliations of property books
records and because the Deputy Chief of Staff     to the equipment that has been deployed into theater.
of the Army, G-4 (DA G-4) did not require
nonexpendable components to be tracked
separately by serial number. As a result, the     Management Actions
Army could not hold units responsible for         The Chief of Staff, Regional Command South secured secret- and
proper use, care, and disposition of equipment    controlled-inventory items that we identified at Kandahar Air
deployed to Afghanistan, which included           Field and opened an investigation on the abandoned equipment.
estimated losses of $200 million worth of         Additionally, the Chief, DA G-4 Property Accountability Division
FP equipment prior to 2010.                       and Defense Logistics Agency personnel confirmed that they
                                                  changed 10 of the 17 miscoded ARCs. This effort ensured that the
In addition, the Army did not require item        items would be handled in accordance with AR 735-5.
managers to assign accurate and cost-effective
accounting requirements codes (ARCs) to FP
components. This occurred because DA G-4          Management Comments and
published conflicting guidance and did not
                                                  Our Response
have a process in place to validate that item
                                                  The Deputy Chief of Staff of the Army, G-4 and Commanding
managers assigned accurate ARCs to FP
                                                  General, Army Materiel Command, did not respond to the draft
equipment. As a result, item managers assigned
                                                  report. Therefore, we request that they provide comments in
                                                  response to this report. Please see the Recommendations Table
                                                  on the next page.

Visit us at www.dodig.mil


                                                                      DODIG-2014-098 (Project No. D2014-D000JB-0031.000) │ i
            Recommendations Table
                                                               Recommendations               No Additional
                                   Management                  Requiring Comment           Comments Required
             Deputy Chief of Staff of the Army, G-4          A.1. and B.1.
                                                             A.2.a., A.2.b., B.2.a., and
             Commanding General, Army Materiel Command       B.2.b.

             Please provide comments by September 1, 2014.




ii │ DODIG-2014-098 (Project No. D2014-D000JB-0031.000)
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                   July 31, 2014

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: The Army Did Not Properly Account For and Manage Force Provider Equipment
	        in Afghanistan (DODIG-2014-098)

We are providing this report for review and comment. The Army did not properly account for
Force Provider modules deployed to Afghanistan from 2001 through 2013. Further, the Army
did not ensure accurate accounting requirements codes were assigned to individual Force
Provider components. This increased the risk that units would improperly destroy, abandon,
or lose Force Provider equipment in theater, which could result in increased reset costs.

The Deputy Chief of Staff of the Army, G-4 and Commanding General, Army Materiel Command,
did not respond to the draft report. DoD Directive 7650.3 requires that recommendations be
resolved promptly. Therefore, we request comments on all recommendations in this report by
September 1, 2014.

Please provide comments that conform to the requirements of DoD Directive 7650.3. Please send
a PDF file containing your comments to audrco@dodig.mil. Copies of your comments must have
the actual signature of the authorizing official for your organization. We cannot accept the /
Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

Comments provided on the report must be marked and portion-marked, as appropriate, in
accordance with DoD Manual 5200.01. If you consider any matters to be exempt from public
release, you should mark them clearly for Inspector General consideration.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905). If you desire, we will provide a formal briefing on the results.




	                                              Amy J. Frontz
	                                              Principal Assistant Inspector General
	                                                for Auditing




                                                                                         DODIG-2014-098 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Force Provider Roles and Responsibilities_____________________________________________________2
                  Deployment and Issuing Process_______________________________________________________________3
                  Retrograde Process______________________________________________________________________________4
                  Army Accountability Requirements____________________________________________________________5
                  Review of Internal Controls_____________________________________________________________________6

                  Finding A. The Army Needs to Improve Accountability
                  of Force Provider Equipment________________________________________________7
                  The Army Did Not Record FP Equipment in the Accountability System_____________________8
                  FP Equipment Not Tracked at Adequate Level______________________________________________ 10
                  Lack of Accountability Increased the Risk of Improper Disposition _ _____________________ 13
                  Conclusion______________________________________________________________________________________ 16
                  Recommendations_____________________________________________________________________________ 16
                  Management Comments Required_ __________________________________________________________ 17

                  Finding B. The Army Did Not Properly Manage Force
                  Provider Components___________________________________________________________ 18
                  ARCs Determine How the Army Will Account for Equipment______________________________ 19
                  Item Managers Assign ARCs to Equipment__________________________________________________ 19
                  The Army Should Assign Cost-Effective ARCs to Class IX Components ___________________ 20
                  The Army Did Not Assign Accurate ARCs to Class II Components ________________________ 21
                  Actions Taken to Address Incorrect ARCs ___________________________________________________ 22
                  Conclusion______________________________________________________________________________________ 22
                  Recommendations_____________________________________________________________________________ 23
                  Management Comments Required_ __________________________________________________________ 23




iv │ DODIG-2014-098
Contents (cont’d)
Appendixes
Appendix A. Scope and Methodology________________________________________________________ 24
	   Use of Computer-Processed Data _______________________________________________________ 26
	   Use of Technical Assistance_______________________________________________________________ 26
Appendix B. Prior Audit Coverage_ __________________________________________________________ 27
Appendix C. Roles and Responsibilities______________________________________________________ 29
Appendix D. Components Identified for Retrograde and Reset____________________________ 32
Appendix E. Components the Army Should Recode________________________________________ 36
Appendix F. Components Recoded by the Army____________________________________________ 37

Acronyms and Abbreviations______________________________________________ 38




                                                                                                    DODIG-2014-098 │ v
                                                                                                 Introduction




Introduction
Objective
Our audit objective was to determine whether DoD properly accounted for Force
Provider (FP) equipment in Afghanistan. See Appendix A for the Scope and Methodology
and Appendix B for a list of prior audit coverage.


Background
FP equipment is the Army’s premier life support base camp system that is a
containerized and highly deployable “tent city.” The FP concept began in 1991 as a
result of inadequate living conditions for soldiers during Operations Desert Shield and
Storm. FP modules consist of military and commercial equipment, which includes
climate-controlled billeting, food preparation and dining facilities, hygiene services,
and morale, welfare and recreation facilities.                    FP modules accommodate up to
600 personnel and can also be divided into four, 150-man expeditionary base camps.
FP can be issued as a complete module or as individual expeditionary base camps.
A single FP module is packaged in approximately 103 triple containers, five 20-foot
containers, 27 trailer-mounted generators, and assorted other self-storing items. This
facilitates transportation by any combination of air, rail, land, and sea. See Figure 1
below for examples of FP module setup in Afghanistan.




 Figure 1: FP Triple Containers and Tents at Bagram Airfield, Afghanistan




                                                                                             DODIG-2014-098 │ 1
Introduction



                 FP is part of Army Prepositioned Stocks1 (APS) and is recorded as Theater Provided
                 Equipment2 (TPE) when deployed.                           The Army produced five different versions3 of
                 FP modules: A, B, C, D, and E. The Army only deployed versions B, C, and D to
                 Afghanistan and is only retrograding4 items from versions C and D that TACOM Life
                 Cycle Management Command (TACOM) identified as required for reset.5


                 Force Provider Roles and Responsibilities
                 Multiple commands, offices, and other organizations throughout the Army are involved
                 in the deployment and retrograde of FP equipment. The most notable are the:

                              •	 Office of the Deputy Chief of Staff of the Army, G-4 Logistics (DA G-4)
                                  provides guidance on developing the APS program, which includes FP
                                  equipment prior to Afghanistan deployment.                                  DA G-4 also issues the
                                  order to release the FP equipment from APS and directs Army Materiel
                                  Command (AMC) to ship FP equipment in support of the operational needs
                                  statement (ONS).6

                              •	 Army Sustainment Command (ASC), a subordinate command of AMC,
                                  manages the APS, including FP. In addition, ASC leverages a global network
                                  of Army Field Support Brigades (AFSB), logistics support teams, and
                                  brigade logistics support teams to provide materiel readiness visibility and
                                  management, including property accountability, depot reset induction and
                                  equipment redistribution. AMC tasks ASC to prepare FP equipment for
                                  transfer to the requesting unit.

                              •	 401st AFSB, headquartered at Bagram Airfield, Afghanistan, a subordinate
                                  command of ASC, executes, directs, and manages field- and sustainment-level
                                  logistics for U.S. and selected coalition forces in Afghanistan. 401st AFSB
                                  provides ASC a forward presence by executing APS and the TPE programs.


                 	1	
                      Assets that are strategically placed around the world to rapidly equip forces deploying to contingencies, stability, or support
                      operations, or to enable realistic training exercises.
                 	2	
                      Theater Provided Equipment is equipment that is received, drawn, or purchased in theater. Further, TPE is designated by
                      the Army to remain in the Area of Responsibility for the duration of the mission.
                 	3	
                      The Army refers to the different versions of FP modules as revisions; for simplification, we refer to them as versions
                      throughout the report.
                 	 4	
                      The process for the movement of non-unit equipment and materiel from a forward location to a reset (replenishment,
                      repair, or recapitalization) program or to another directed area of operations to replenish unit stocks, or to satisfy stock
                      requirements.
                 	5	
                      To restock equipment to a desired level of combat capability that meets a unit’s future mission requirements.
                 	6	
                      The ONS outlines and justifies the requesting units need for FP equipment.




2 │ DODIG-2014-098
                                                                                                                               Introduction



                  AMC tasks ASC with ensuring that force provider equipment is transferred
                  to the 401st AFSB’s TPE records through the Army retail accountability
                  system known as Property Book Unit Supply Enhanced (PBUSE). 401st AFSB
                  also oversees the retrograde of TPE in Afghanistan.

              •	 TACOM is a major subordinate command of AMC and consists of the
                  following major organizations: PEO Ground Combat Systems; PEO Combat
                  Service and Combat Service Support; PEO Soldier; Integrated Logistics
                  Support Center; and Acquisition Center. Product Manager Force Sustainment
                  Systems (PdM FSS), which is in PEO Combat Service and Combat Service
                  Support, is the material developer and has total life cycle management
                  responsibility for FP. The Soldier Product Support Integration Directorate,
                  which is under the Integrated Logistics Support Center, provides total
                  life cycle logistics and materiel readiness support and is the wholesale
                  manager of FP. Based on direction from AMC, personnel in the Integrated
                  Logistics Support Center provide a material release order7 to 401st AFSB
                  and then transfer the FP equipment to 401st AFSB or directly to deployed
                  units. PdM FSS and the Soldier Product Integration Directorate maintain a
                  presence in Afghanistan to support the identification and retrograde of FP
                  equipment needed for reset. The Soldier Product Integration Directorate
                  also oversees the 320 Yard8 at Bagram Airfield.

For a full overview of individual roles and responsibilities of all organizations
associated with the deployment and retrograde of FP, see Appendix C.


Deployment and Issuing Process
The flow chart in Figure 2 represents the Army’s deployment and issuing process for
FP equipment. The flowchart identifies areas where the Army could potentially lose
accountability of FP equipment after the equipment is no longer tracked by the Army.




	7	
      A material release order is an order to release and transfer materiel.
	8	
      The 320 yard is a plot of land specifically designated by the Army to process FP equipment. It is used by TACOM and
      401st AFSB for processing FP equipment for retrograde.




                                                                                                                            DODIG-2014-098 │ 3
Introduction



                 Figure 2: FP Equipment Deployment and Issuing Process

                                 Submit ONS for                                                        Issues ORDER to
                                    Approval                           Validates                       source ONS w/ FP
                     USFOR-A                           DA G-3                             DA G-4                                   AMC



                                                                                                                                         Issues ORDER
                                                                                                                                         to Release FP
                                                                                                                                            from APS
         Identiﬁes a
         need for FP
          Equipment
                                                                                                                                  TACOM
                                                                           Transfers FP
                                                                                                                                           Processes Sales
                                                                                                                Transfers FP              Order in LMP that
                                                         Laterally Transfers                                                                is sent to the
                      Units                                                               401st
                                                                                                                                          Depot; Wholesale
                                                           Updates                                                                             record is
                                                           PBUSE to                                                                      decremented upon
                                                           bring FP                                                                            shipment
                                                          onto books


               FP not entered                                                        FP not entered                                LMP
                into PBUSE;                                 PBUSE                     into PBUSE;
                tracking lost                                                         tracking lost



                      Legend
                      USFOR-A      United States Forces–Afghanistan
                      DA G-3       Oﬃce of the Deputy Chief of Staﬀ of the Army, G-3/5/7 Operations, Plans, and Training branch
                      LMP          Logistics Modernization Program




                 Retrograde Process
                 FP equipment that the Army tracked using PBUSE has a different process than the
                 equipment that was not entered in PBUSE. FP equipment accounted for in PBUSE
                 goes through the Redistribution Property Assistant Team yard and the formal TPE
                 planner process for disposition and retrograde while FP equipment that was not
                 accounted for in PBUSE goes through the retrosort yard9 and 320 yard for disposition
                 and retrograde. However, a unit could also send its FP equipment that was not in
                 PBUSE directly to Defense Logistics Agency (DLA)–Disposition Services (DS) for
                 destruction. See Figure 3 for the Army’s process for the retrograde of FP equipment.


                 	9	
                       The retrosort yard is an equipment turn in facility operated by the 1103rd Combat Sustainment Support Battalion. They are
                       responsible for providing redistribution, retrograde, and disposal services for units across the Combined Joint Operations
                       Area– Afghanistan in order to gain visibility and accountability of excess non-mission essential equipment and materiel that
                       is not on property books.



4 │ DODIG-2014-098
                                                                                                                                                Introduction



        Figure 3: FP Retrograde Process


                                                                                 Determines                                            DLA-DS
                                          Enters FP Info                         Disposition        Watermarked
                           Unit                                TPE Planner                             1348
                                                                 PBUSE

 Turns in
 with no                                                                                                                              401st RPAT
questions                                                                                                                                Yard
  asked
                         DLA-DS
                                                                                                                           Process FP for
                                                                                                                            Retrograde
                                                                                                                           and Shipment


                                                                                         Generic 1348
Retrosort Yard                             320 Yard for FP                                and 1750                                          Depot
                                                                  Process FP for                              Ships FP Containers
                                                                   Retrograde                                 to U.S. and updates
                                                                                                                tracking systems
                                                                                                                  with generic
                        Found on                                                                                   information
                       Installation



            1 TPE Planner a web-based automation tool that assist units in determining the disposition of their TPE that
               is accounted for in PBUSE.
            2 Watermarked 1348s are generated by TPE Planner only for FP equipment that was accounted for in PBUSE.
            3 DLA-DS disposes of excess property in theater.
            4 Redistribution Property Assistance Team Yard (RPAT Yard) is run by 401st AFSB and assists units by
              receiving, processing, and shipping equipment turned in by units, including TPE.




        Army Accountability Requirements
        There are several Army and DoD policies that describe how the Army should account
        for equipment.                The most notable are Army Regulations (AR) 735-5, “Property
        Accountability Policies,” August 22, 2013, and 710-2, “Inventory Management-Supply
        below the National Level,” March 28, 2008. AR 735-5 provides guidance for accounting
        for Army property and accounting for lost, damaged, or destroyed Army property. It
        states that all property acquired by the Army from any source must be accounted for
        with continuous accounting from the time of acquisition until the ultimate consumption
        or disposal of the property occurs and that supporting documentation must be
        maintained. It further states that all Army property, except real property, is assigned
        an accounting requirements code (ARC) of expendable, durable, or nonexpendable.
        The ARC identifies the degree of accounting and control that must be applied at the
        user level. Nonexpendable property requires formal accountability throughout the




                                                                                                                                            DODIG-2014-098 │ 5
Introduction



                 life of the item. Nonexpendable items will be accounted for at the using-unit level
                 using property book procedures in accordance with AR 710-2.

                 AR 710-2 provides guidance for the accountability and assignment of responsibility
                 for property issued to a unit.                      It states that all property acquired by the Army,
                 regardless of source, needs to be accounted for, and that all nonexpendable items
                 must be accounted for on a formal property book.10 It further states that property
                 book records must provide a complete trail (suitable for audit) for all transactions.
                 In addition, all employees of the Army, both military and civilian, are required to turn
                 in all found Government property to the supply system for disposition.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls. We identified internal
                 control weaknesses in the accountability of FP equipment in Afghanistan. Specifically,
                 the Army did not properly account for the 62 FP module equivalents deployed to
                 Afghanistan from 2001 through 2013, valued at approximately $424.57 million. In
                 addition, the Army did not properly manage FP components in the version C and D
                 FP modules deployed to Afghanistan. We will provide a copy of this report to the
                 senior official responsible for internal controls in the Department of the Army.




                 	 10	
                         Organizations and activities using an automated property book accounting system are not required to keep manual records
                         that duplicate information available from the automated system (such as the property book document register and due-in
                         suspense file). All property book records must provide a complete trail (suitable for audit) for all transactions.




6 │ DODIG-2014-098
                                                                                                                                       Finding A




Finding A
The Army Needs to Improve Accountability of Force
Provider Equipment
The Army did not properly account for the 62 FP module equivalents11 deployed to
Afghanistan from 2001 through 2013, valued at approximately $424.57 million.
Specifically:

               •	 Army did not account for 43.25 FP module equivalents, valued at
                   $284.64 million. This occurred because the Army did not verify that FP
                   equipment was recorded on the receiving unit’s accountability records.

               •	 Although ASC and 401st AFSB recorded 18.75 FP module equivalents,
                   valued at $139.93 million, DA G-4 did not require ASC and 401st AFSB to
                   track the modules at a level that would allow for adequate accountability
                   if deployed units separated components from the module. This occurred
                   because DA G-4 procedures for tracking FP equipment were not consistent
                   with AR 710-02 policy for accounting for nonexpendable12 property.

As a result of the Army’s lack of accountability of FP equipment, the Army could not
hold units responsible for proper use, care, and disposition of equipment deployed
to Afghanistan. This increased the risk that units would improperly destroy, abandon,
or lose FP equipment in theater, ultimately resulting in increased reset costs. Since
$284.64 million worth of FP equipment was never accounted for, the Army could not
determine how much FP equipment was improperly destroyed, lost or abandoned.
However, TACOM personnel estimated that the Army generated a loss of $200 million
worth of FP equipment prior to 2010 due to poor accountability, and we found $287,860
worth of FP equipment abandoned during site visits to two bases in Afghanistan.

	11	
       One FP module can be separated into four expeditionary base camps. As a result, one expeditionary base camp equals
       0.25 of an FP module equivalent.
	12	
       Nonexpendable property is not consumed in use and retains its original identity during the period of use. Nonexpendable
       property requires formal property book accounting after being issued to the user level.




                                                                                                                                 DODIG-2014-098 │ 7
Finding A



                 The Army Did Not Record FP Equipment in the
                 Accountability System
                 The Army did not account for 43.25 FP module equivalents deployed to Afghanistan,
                 valued at $284.64 million, in PBUSE. Prior to 2006, the Army did not have an adequate
                 process to ensure units brought the equipment to record after it was transferred to
                 the unit from the Logistics Civil Augmentation Plan vendor. However, even after a
                 process for recording FP property as TPE was developed, ASC and 401st AFSB still did
                 not verify that FP equipment was properly recorded in the unit’s account in PBUSE,
                 the Army’s retail accountability system, after it was removed from the wholesale13
                 accountability system, referred to as LMP.14


                 The Army Did Not Account for All Deployed FP Modules
                 The Army did not account for 43.25 FP module equivalents
                 deployed to Afghanistan.                        In total the Army deployed
                                                                                                                              The
                 62 FP modules valued at $424.57 million to Afghanistan                                                   Army did
                 from 2001 through 2013.                          The DA G-4 attempted to                               not account for
                 identify and obtain full accountability of FP equipment                                               43.25 FP module
                                                                                                                         equivalents
                 in Afghanistan in August of 2010. Specifically, DA G-4                                                  deployed to
                 issued a memorandum to the Commanding General,                                                          Afghanistan.
                 U.S. Army Central Command requiring units to establish
                 formal property accountability of all FP modules and add-on kits
                 in Southwest Asia. The Army deployed 48.25 FP module equivalents to Afghanistan
                 from 2001 to 2010; however, 401st AFSB only accounted for 2 of those 48.25 FP module
                 equivalents in PBUSE prior to the memorandum. The Army deployed an additional
                 13.75 FP module equivalents to Afghanistan from 2010 through 2013. However despite
                 the memorandum, the Army still only accounted for 18.75 FP module equivalents
                 valued at $139.93 million in PBUSE as illustrated in table 1.




                 	13	
                         Wholesale items are generally stored in distribution warehouses, sometimes called inventory control points, where they
                         are held pending requisitions from the retail supply system. As the retail system requires parts, it requisitions the needed
                         items from the wholesale supply system.
                 	 14	
                         LMP is the Army’s Enterprise Resource Planning system used to record Army logistical and financial transactions.




8 │ DODIG-2014-098
                                                                                                         Finding A



Table 1: FP Equipment Not Historically Accounted for in Theater (as of January 2014)
                   Quantity of        Quantity of                      Quantity of
                                                         Value in                    Value not
      FP           FP Module          FP Module                        FP Module
                                                          PBUSE                      in PBUSE
  Description      Equivalents       Equivalents in                    Equivalents
                                                        (millions)                   (millions)
                    Deployed            PBUSE                         Not in PBUSE
 Version B                   16                  3           $18.90             13        $81.90
 (Light)
 Version B                   21                  2           $12.66             19       $120.27
 Expeditionary                   6            1.75           $11.20           4.25        $27.20
 Base Camp
 Version C                       7               3           $22.88              4        $30.50
 Version D                   12                  9           $74.29              3        $24.76
   Total                     62              18.75         $139.93           43.25     $284.64*

*Total does not equal the actual sum due to rounding.

AR 735-5 requires that all property acquired by the Army from any source must be
continuously accounted for from the time of acquisition until the ultimate consumption
or disposal of the property occurs and that supporting documentation be maintained.
However, the Army did not maintain continuous accountability of 43.25 FP module
equivalents, valued at $284.64 million that the Army deployed to Afghanistan
since 2001.


The Army Did Not Properly Transfer Accountability to
Deployed Units
The Army did not maintain continuous accountability of FP modules deployed to
Afghanistan since 2001. Originally, the Army used the Logistics Civil Augmentation
Plan vendor to transfer equipment to the units. However, the Army did not have an
adequate process prior to 2006 to ensure units brought the equipment to record once
it was transferred from the vendor, thus losing accountability of the FP equipment
sent to Afghanistan.

In 2006, the Army established a process to record and track FP equipment as
TPE. This process should have ensured that the FP equipment accountability was
transferred to deployed units. Despite this new process, the Army did not maintain
continuous accountability of FP modules deployed to Afghanistan. Specifically, ASC and
401st AFSB did not verify that FP equipment was recorded on the receiving unit’s
accountability records as TPE. ASC and 401st AFSB attributed the loss of accountability
to multiple reasons. According to 401st AFSB personnel the DA product managers
were responsible for ensuring that the receiving unit accounted for the FP equipment




                                                                                                   DODIG-2014-098 │ 9
Finding A



                 in PBUSE as TPE. Additionally, the 401st AFSB stated they
                 received a surge of FP equipment in 2009 and, at
                                                                                 The 401st AFSB
                 that time, FP accountability was not a top priority.         stated they received
                 Furthermore, ASC personnel stated that 401st AFSB                a surge of FP
                 was not responsible for recording FP equipment in            equipment in 2009
                                                                              and, at that time, FP
                 PBUSE until DA G-4 officially issued a memorandum in          accountability was
                 August 2010. However, ASC and 401st AFSB personnel             not a top priority.
                 should have ensured that incoming FP equipment was
                 recorded in PBUSE as TPE.

                 Since August 2006, DA G-4 orders, which authorized the release of FP equipment,
                 have stated that FP equipment should be added as TPE to the theater property book.
                 As the forward presence of ASC, 401st AFSB maintains theater-wide asset visibility
                 of all TPE and accountability of all equipment designated as TPE. It is the theater
                 property book officer’s responsibility to transfer accountability of the FP equipment
                 to the requesting unit. In addition, ASC is responsible for accounting for, issuing,
                 and transferring accountability of APS equipment, including FP, to deploying units.
                 However, ASC and 401st AFSB personnel did not always ensure incoming FP equipment
                 was recorded in PBUSE.


                 Equipment Transfer Process Lacked Accountability
                 There is no clear guidance that specifies how FP equipment should be transferred
                 from LMP to PBUSE or identifies the individuals involved in the process. The Army
                 needs to issue FP-specific guidance that ensures that it is continuously accounted for
                 from deployment to retrograde. Additionally, AMC should emphasize the importance
                 of supply discipline and accountability to ensure complete property accountability
                 for future contingency operations where FP is deployed. The Commanding General,
                 AMC should establish clear guidance that details ASC and 401st AFSB’s responsibilities
                 regarding the accountability of FP equipment in theater. The guidance should specify
                 which command is responsible for executing the transfers of accountability that are
                 associated with the deployment, issuance, and retrograde of FP equipment. In addition,
                 AMC should require the 401st AFSB theater property book officer to conduct quarterly
                 reviews to validate the FP equipment that is recorded in the PBUSE system to the
                 FP equipment that has been deployed to that theater.


                 FP Equipment Not Tracked at Adequate Level
                 DA G-4 did not require ASC and 401st AFSB to adequately track FP module equivalents
                 that were accounted for in PBUSE. Specifically, DA G-4 only required ASC and the



10 │ DODIG-2014-098
                                                                                                                                               Finding A



401st AFSB to track FP modules in PBUSE using a national stock number (NSN)15
and line-item number (LIN)16 rather than by the nonexpendable components that
compose the modules. Each FP module contains over 28,000 components of which
approximately 548 are nonexpendable.                              Table 2 shows the separate LIN and NSN
combinations that DA G-4 used to track the 62 FP modules deployed to Afghanistan.
As illustrated, the Army used only one LIN (F28973) to track eight versions of the
FP modules and two LINs (EB1901 and EB1902) to track the two versions of
Expeditionary Base Camps that were deployed to Afghanistan. Furthermore, since
LINs are not unique to the equipment, there is not sufficient information to identify
which modules are recorded in the accountability system because the modules are not
tracked by serial number.

Table 2: List of LINs and NSNs for FP Modules
                                                                                                                    Quantity
                                                                                              Quantity               Brought
         Nomenclature                        LIN                        NSN                   Deployed              to PBUSE
                                                                                                                     Record
  Expeditionary                     F28973                    5419-01-566-1156                              0                       0
  [v. D] (Green)
  Expeditionary                     F28973                    5419-01-566-1160                            12                        9
  [v. D] (Tan)
  Expeditionary,                    F28973                    5419-01-571-6445                              2                       2
  Heavy [v. C] (Green)
  Expeditionary,                    F28973                    5419-01-571-6447                              5                       1
  Heavy [v. C] (Tan)
  Module [v. B]                     F28973                    5419-01-439-7807                              0                       0
  (Green)
  Module [v. B]                     F28973                    5419-01-399-6391                              2                       1
  (Tan)
  Module Lite                       F28973                    5419-01-473-2294                            19                        1
  [v. B] (Green)
  Module Lite                       F28973                    5419-01-473-2297                            16                        3
  [v. B] (Tan)
  Expeditionary Base                EB1901 EB1902             5419-01-548-5063                              3                  .25
  Camp (Green)
  Expeditionary Base                EB1901 EB1902             5419-01-548-5064                              3                 1.50
  Camp (Tan)
       Total                                                                                              62                18.75




	15	
       The 13-digit stock number consisting of the 4-digit federal supply classification code and the 9-digit national item
       identification number.
	16	
       A LIN is a number assigned to a generic item description that identifies the line on which the generic item description is
       listed.




                                                                                                                                        DODIG-2014-098 │ 11
Finding A



                 Modules Were Separated From Original Configuration
                 ASC and 401st AFSB risked losing accountability of the 18.75 FP module equivalents,
                 valued at $139.93 million, which it accounted for in PBUSE after the FP modules
                 were separated from their original configuration. In addition to the 18.75 FP module
                 equivalents, 401st AFSB tracked 682 components, valued at $28.91 million, separately
                 in PBUSE.   401st AFSB and TACOM personnel stated that it is common for units
                 in Afghanistan to separate components from their original module.       For example,
                 a commander might decide to transfer a portion of an FP module, such as an
                 expeditionary base camp, latrine, shower, or laundry, to another base, separating the
                 FP module from its original configuration.

                 However, because the Army is only accounting for FP modules
                 at the modular level rather than by the nonexpendable
                 components contained in each module, it was not possible           It was not
                 to determine if the proper transfer of accountability              possible to
                 always occurred. In addition, we could not determine            determine if the
                                                                                proper transfer of
                 which of the 62 FP modules the 682 components
                                                                                  accountability
                 originally belonged. Finally, because units separated FP       always occurred.
                 modules in the field without 401st AFSB’s knowledge, we
                 could not determine if FP components were counted more
                 than once or if all separated FP components were accounted for
                 by the units in PBUSE.


                 DA G-4 Needs Greater Visibility of FP Components
                 The DA G-4 did not follow requirements in AR 710-02 when establishing procedures
                 for accounting for FP equipment in PBUSE. Specifically, AR 710-02 requires that all
                 property acquired by the Army, regardless of source, needs to be accounted for and
                 that all nonexpendable items are required to be recorded in a formal property book
                 after issued to the user. Tracking FP components at a modular level does not meet
                 the intent of AR 710-02 because it combines over 500 nonexpendable items into one
                 line in PBUSE.    When only the LIN and NSN are used to track the FP module,
                 the nonexpendable components are not adequately tracked.         This creates severe
                 accountability challenges for FP modules when nonexpendable components are
                 separated from their original configuration, which according to 401st AFSB and TACOM
                 personnel happens often. As a result, we could not determine whether the modules
                 recorded in PBUSE were complete.       Specifically, nonexpendable components could
                 have been separated from the original configuration, and the current process for FP
                 accounting would not have identified this action in PBUSE.



12 │ DODIG-2014-098
                                                                                                 Finding A



Many of the nonexpendable items that compose a module were given a serial number
before being deployed.        However, DA G-4 did not require this information to be
captured by ASC and 401 AFSB in PBUSE. If the Army uses serial numbers and NSNs,
                         st


it could track most nonexpendable components on current and future versions to
prevent the loss of accountability and visibility when FP modules are separated from
their original configuration. The Deputy Chief of Staff of the Army, G-4 should identify
and account for all nonexpendable Force Provider components by serial number in the
Army accountability systems to maximize accountability and visibility of FP equipment
when deployed.


Lack of Accountability Increased the Risk of
Improper Disposition
The Army could not hold units responsible for proper use, care,
and disposition of FP equipment deployed to Afghanistan
because they did not fully account for FP equipment. For                The Army
                                                                     could not hold
example, TACOM personnel identified 47 FP components
                                                                    units responsible
that they determined were cost effective to retrograde            for proper use, care,
out of Afghanistan for the reset of future modules                and disposition of FP
(see Appendix D).    However, the Army mismanaged                 equipment deployed
                                                                     to Afghanistan.
these items, which increased the risk that units would
improperly destroy, abandon, or lose FP equipment in
theater. This ultimately would result in increased reset costs.


Poor Accountability May Have Resulted in
Improper Destruction
The Army’s poor accountability increased the risk that DLA-DS would unknowingly
destroy FP items that TACOM desired for reset. As of February 2014, DLA-DS processed
$23.14 million worth of FP equipment. Of that amount, $6.97 million worth of FP
equipment was in serviceable or repairable condition, $641,811 of which TACOM
desired for reset. However, the data obtained from DLA-DS may not have included
all the FP equipment turned in for disposal. Specifically, DoD Office of the Inspector
General Report No. DODIG-2014-007, “Defense Logistics Agency Disposition Services
Afghanistan Disposal Process Needed Improvement,” November 8, 2013, stated that
the DLA-DS records were not always accurate or complete. Further, FP equipment
that units coded as unserviceable could have been serviceable. Specifically, TACOM
personnel stated that condition codes were not always accurate because sometimes
units assigned equipment unserviceable-condemned-condition codes to “get the
property off their hands so they can redeploy.”


                                                                                          DODIG-2014-098 │ 13
Finding A



                 The unit turning the equipment into DLA-DS is supposed to be the technical expert
                 on the property requiring disposal. Therefore, other than ensuring the equipment
                 received for disposal is accurately listed on the turn-in document, DLA-DS personnel
                 are not required to validate the accuracy of anything else on the turn-in document,
                 including the condition code. DLA-DS personnel also are not required to assess if
                 there was a need for the equipment in theater or if the item should be retrograded.
                 Instead, DLA-DS relied on the unit to make those determinations, and the units were
                 not always reliable. For example, there was an instance in 2010 when DLA-DS notified
                 TACOM personnel prior to processing the equipment that 18 FP generators and
                 19 environment control units, valued at approximately $789,267, were dropped off
                 at DLA-DS. The equipment was nearly new and should not have been destroyed.
                 TACOM personnel recovered some of the equipment in this instance, but there was
                 no way to hold anyone accountable. TACOM personnel stated that this occurrence
                 initiated an aggressive patrolling of DLA-DS sites, which resulted in TACOM personnel
                 recovering numerous FP items that were improperly turned in.


                 The Amount of Equipment Lost or Abandoned Was Unknown
                 401st AFSB could not determine the amount of FP equipment lost or abandoned
                 in Afghanistan because the Army did not maintain continuous accountability of
                 $284.64 million worth of FP equipment. From 2011 through 2013, 401st AFSB reported
                 $7.77 million worth of FP equipment losses on their Financial Liability Investigation
                 of Property Loss tracker.17 However, the amount of FP items listed on the tracker did
                 not accurately represent the amount of FP equipment lost in Afghanistan because
                 it did not capture FP equipment not accounted for in PBUSE or lost prior to 2011.
                 For example, TACOM personnel estimated that prior to 2010 the Army generated a
                 loss of more than $200 million in FP equipment due to poor accountability.

                 Further, without proper accountability, the risk of units abandoning equipment
                 significantly increases. For example, we identified two instances of abandoned FP
                 equipment at two bases in Afghanistan where we conducted fieldwork. At Bagram
                 Airfield, we identified approximately $183,860 worth of FP equipment that a unit had
                 abandoned in a yard for at least 7 months. At Kandahar Airfield, we identified at least
                 $104,000 worth of FP equipment in an abandoned yard that had been left unsecured
                 and exposed to the elements for an unknown amount of time. Figure 4 provides an
                 example of discarded FP inventory we observed at the abandoned yard at Kandahar.



                 	17	
                        Financial Liability Investigations of Property Loss support the voucher used to adjusts the accountability records when
                        Government property has been lost or damaged.




14 │ DODIG-2014-098
                                                                                                        Finding A




 Figure 4: FP Kitchen Container Full of Equipment Abandoned on Kandahar Airfield, Afghanistan


In addition to the FP equipment at Kandahar, we identified secret- and controlled-
inventory items in open containers and triwalls in the same unsecured yard. We
communicated our observations to retrosort yard officials at Kandahar and Regional
Command South personnel for immediate attention.                       The Chief of Staff Regional
Command South immediately secured the secret- and controlled-inventory items
and opened a security investigation to determine how the items were abandoned




                                                                                                 DODIG-2014-098 │ 15
Finding A



                 at the lot.          The Regional Command South investigation determined that the yard
                 contained a total in excess of 1,874 items, valued at over $2.2 million, including
                 28 sensitive items valued over $380,000 and 2 high-dollar items valued over $442,000.
                 The investigation concluded that due to systemic failures in the property accountability
                 procedures, the investigators could not determine with definitive accuracy any
                 individual that could be held liable for the abandoned items.


                 Lack of Accountability Will Increase Reset Costs
                 Reset costs increase when units improperly destroy, lose, or abandon FP equipment.
                 According to Program Executive Office Combat Support and Combat Service Support
                 personnel, it costs an average of $4.3 million18 to reset an FP module versus
                 $12.8 million to purchase a new module.                              These amounts included the costs of
                 retrograding equipment. Therefore, in order to bring a module back to fully mission
                 capable status, the Army would need to repurchase items that units improperly
                 destroyed, lost, or abandoned in Afghanistan at a much greater price than if the
                 equipment had been properly retrograded.


                 Conclusion
                 The Army needs to improve its accountability of deployed FP equipment. The Army
                 did not account for 43.25 FP module equivalents, valued at $284.64 million, out of
                 the 62 FP module equivalents that were deployed to Afghanistan. In addition, the
                 Army tracked 18.75 FP module equivalents, valued at $139.93 million, but it did not
                 account for the equipment at a level that allowed adequate accountability. The Army
                 could make improvements by tracking nonexpendable components by serial number
                 and by establishing clear guidance on who is responsible for accounting for FP
                 equipment when deployed.


                 Recommendations
                 Recommendation A.1
                 We recommend that the Deputy Chief of Staff of the Army, G-4 identify and account
                 for all nonexpendable Force Provider components by serial number in the Army
                 accountability systems.




                 	18	
                        This amount does not include replacement for any major end items either not returned from theater, beyond economical
                        repair, or replaced due to a configuration change.




16 │ DODIG-2014-098
                                                                                            Finding A



Recommendation A.2
We recommend that the Commanding General, Army Materiel Command:

        a.	 Establish clear guidance that details the Army Sustainment Command’s and
          401st Army Field Support Brigade’s responsibilities for accountability of
          Force Provider equipment in theater. The guidance should specify which
          command is responsible for executing the transfers of accountability that
          are associated with the deployment, issuance, and retrograde of Force
          Provider equipment.

        b.	 Require the 401st Army Field Support Brigade theater property book
          officer to conduct quarterly reconciliations of the Force Provider equipment
          that is recorded in the Property Book Unit Supply Enhanced system to
          the Force Provider equipment that has been deployed to that theater.


Management Comments Required
The Deputy Chief of Staff of the Army, G-4 and the Commanding General, Army
Materiel Command, did not provide comments on the draft report. We request that
the Deputy Chief of Staff of the Army, G-4 and Commanding General, Army Materiel
Command, provide comments on the final report.




                                                                                     DODIG-2014-098 │ 17
Finding B




                 Finding B
                 The Army Did Not Properly Manage Force Provider
                 Components
                 The Army did not properly manage FP components in the version C and D FP modules19
                 deployed to Afghanistan. Specifically, the Army did not require FP item managers to
                 assign accurate and cost-effective ARCs, which prescribe how units should account for
                 Army equipment. This occurred because DA G-4:

                                 •	 published conflicting guidance in AR 735-5 that assigned all class IX20 FP
                                     equipment as expendable ARCs regardless of the cost or characteristics of
                                     the item; and

                                 •	 did not have a process in place to validate that item managers assigned
                                     accurate ARCs to class II FP equipment.

                 As a result, item managers inaccurately assigned expendable ARCs to 17 FP components,
                 valued at $41.96 million.                       Consequently, units were not required to account for
                 the 17 FP components even though the equipment should have been assigned
                 nonexpendable or durable ARCs, which require formal property book accounting or
                 hand receipt controls. In addition, since expendable property is not required to be
                 turned in by the units, while nonexpendable and durable equipment should be turned
                 in, this deficiency also increased the risk that the incorrectly coded FP equipment
                 would be lost, destroyed, or abandoned in theater.

                 	19	
                         Of the 62 FP module equivalents deployed to Afghanistan, 25 were versions C and D. The remaining 37 FP module
                         equivalents were version B, which PM FSS and TACOM personnel did not want for reset. Therefore, we did not review
                         the ARCs for those 37 FP module equivalents.
                 	 20	
                         The Army divides all of its supplies into 10 classes. An FP module is composed of class II, class VII, and class IX components.
                         Class II includes individual equipment, tents, and organizational tool sets and kits; class VII equipment consist of major
                         end items, such as kitchens and showers; and class IX includes repair parts and components, such as assemblies
                         and subassemblies.




18 │ DODIG-2014-098
                                                                                              Finding B



ARCs Determine How the Army Will Account
for Equipment
ARCs determine how items are accounted for in an Army accountability system.
Specifically, based on guidance prescribed in AR 735-5, all Army property is assigned
an ARC, which classifies property as nonexpendable, durable, or expendable.

        •	 Nonexpendable property is not consumed in use and retains its original
           identity during the period of use. Nonexpendable property requires formal
           property book accounting throughout the life of the item and is required
           to be turned in for retrograde.

        •	 Durable property is not consumed in use and does not require formal
           property book accounting but, because of its unique characteristics,
           requires other property accountability controls when issued to the user.
           AR 735-5 further states that personal property having a unit cost between
           $500 and $5,000, and not otherwise coded nonexpendable, is durable.
           Durable equipment should be required to be turned in for retrograde.

        •	 Expendable property is consumed in use, loses its identity in use, or
           has a unit cost of less than $500. The Army does not require any formal
           property book accounting after issue to the user level and it is not required
           to be turned in for retrograde.


Item Managers Assign ARCs to Equipment
Item managers are responsible for assigning ARCs to the equipment they procure and
manage. The U.S. Army Soldier’s Biological and Chemical Command was responsible
for purchasing and managing the FP components, such as the kitchens and showers.
As such, the Army assigns the corresponding ARCs to those items. However, DLA
also buys several FP components, and is assigned as the item manager for these
components.   DLA personnel stated that several years ago, the Logistics Support
Activity, a subordinate command of the Army Materiel Command, instructed DLA to
code all DLA-managed equipment as expendable. As a result, all items purchased
by DLA are managed and accounted for as if they were consumed in use regardless
of the ARC that AR 735-5 prescribed the item should receive. DLA personnel stated
that if the Army would like DLA to assign a nonexpendable or durable ARC to an item
it manages, it is the Army’s responsibility to contact DLA to arrange for the item to
be recoded.




                                                                                       DODIG-2014-098 │ 19
Finding B



                 The Army Should Assign Cost-Effective ARCs to
                 Class IX Components
                 The Army did not require item managers to assign accurate
                 and cost-effective ARCs to class IX FP components in                 The Army did
                 the version C and D FP modules that were deployed to               not require item
                 Afghanistan.    Specifically, all class IX FP components         managers to assign
                                                                                   accurate and cost-
                 were managed as expendable regardless of the                    effective ARCs to class
                 characteristics of the item.   For example, one of the            IX FP components.
                 class IX FP components, an electrical power distribution
                 box, was coded as expendable despite having a unit
                 cost of $8,107.52 and a total value of $210,795.52 for the
                 26 distribution boxes that were required to reset an entire module. (See Appendix E
                 for a listing of the seven class IX components.) This occurred because DA G-4, as
                 the proponent of AR 735-5, developed and published conflicting guidance that stated
                 all class IX equipment should be assigned expendable ARCs, no matter the cost or
                 any other characteristics of the item.

                 As a result, DLA assigned expendable ARCs to seven class IX components, totaling
                 $13.14 million, which should have been coded as nonexpendable or durable.
                 Specifically, none of the seven class IX items were consumed in use, lost their identity
                 in use, or had a unit cost of less than $500, but they were coded as expendable
                 because AR 735-5 stated that all class IX items should be labeled as such.                In
                 addition, TACOM identified all seven class IX items as cost effective to retrograde from
                 Afghanistan, further demonstrating that the items would not be consumed in use and
                 should have been properly accounted for. By publishing guidance that required item
                 managers to assign expendable ARCs to all class IX items, DA G-4 did not require units
                 to formally account for or turn in the FP equipment for retrograde, which increased
                 the risk that the Army would not get the equipment back.

                 To ensure item managers assign Army equipment the most accurate and cost-effective
                 ARCs regardless of the class of the equipment, the Deputy Chief of Staff of the Army, G-4
                 should revise AR 735-5 to ensure items that are not consumed in use, do not lose their
                 identity in use, and have a unit cost of more than $500 are assigned nonexpendable or
                 durable ARCs.




20 │ DODIG-2014-098
                                                                                             Finding B



The Army Did Not Assign Accurate ARCs to
Class II Components
The Army did not properly manage 10 class II FP components in the version C and D
FP modules that were deployed to Afghanistan. Specifically, the Army did not require
item managers to assign ARCs in accordance with AR 735-5. AR 735-5 prescribed
which Army supply classes should be assigned nonexpendable, durable, and
expendable ARCs. For supply classes that are not explicitly referenced in AR 735-5, the
guidance provides a dollar-value range for determining the ARC of an item. However,
AR 735-5 was not being used when assigning ARCs to DLA-managed items. Specifically,
if an FP item was managed by DLA, it would be assigned an expendable ARC no
matter what the supply class or dollar value of an FP component was. DLA officials
stated that this deficiency originated because the Logistics Support Activity made the
decision to code all DLA-managed items as expendable.          However, the problem
persisted and was unresolved for several years because DA G-4, who is ultimately
responsible for the equipment, did not have a process in place to validate that the
item managers assigned accurate ARCs to the FP equipment they managed.

As a result, DLA assigned expendable ARCs to 10 class II
FP components, valued at $28.81 million, that AR 735-5              DLA
stated should have been coded nonexpendable or                    assigned
durable. AR 735-5 stated that all Army equipment             expendable ARCs
                                                              to 10 class II FP
with an 8340 federal supply code that is an end            components, valued at
item should be coded with a nonexpendable ARC              $28.81 million, that AR
and all equipment with a 7340 federal supply code           735-5 stated should
                                                              have been coded
be coded with a durable ARC. However, 9 FP end
                                                             nonexpendable or
items with Federal Supply Codes of 8340 and one FP                durable.
item with a 7105 code were all coded as expendable.
Expendable equipment is managed as if it was consumed
upon issuance and requires no accountability, while nonexpendable requires formal
property book accountability and durable equipment requires hand receipt controls.
In addition, expendable equipment is not required to be turned in for retrograde.
Incorrectly assigning expendable ARCs to the 10 FP components meant that units
could dispose of the equipment, which increased the risks that the Army would
not get the equipment back. (See Appendix F for a listing of the items that DLA
incorrectly coded.)




                                                                                      DODIG-2014-098 │ 21
Finding B



                 Actions Taken to Address Incorrect ARCs
                 On January 10, 2014, we informed the Chief, DA G-4 Property Accountability Division
                 of our concerns that FP components were miscoded with inaccurate ARCs.           The
                 chief subsequently communicated with DLA personnel, and on January 30, 2014,
                 DLA personnel confirmed that they had submitted cataloging actions to recode
                 the 10 ARCs from expendable to nonexpendable.       We determined that the efforts
                 taken by DA G-4 and DLA ensured the items would be handled in accordance with
                 AR 735-5. Specifically, because DLA changed the ARCs for the 10 class II FP items
                 from expendable to nonexpendable, the Army now requires units to maintain FP
                 equipment using formal property accounting. In addition, units are responsible for
                 turning the 10 items in for retrograde and are responsible for lost equipment. As
                 a result, DA G-4 and DLA have decreased the risk that units will improperly lose,
                 destroy, or abandon the 10 FP components.

                 Although DA G-4 addressed this deficiency for FP, DLA is the item manager for a
                 significant amount of Army equipment.     Consequently, this other Army equipment
                 may have been assigned incorrect ARCs. In addition, DLA may not be the only item
                 manager that Army officials instructed to code items as expendable. The Commanding
                 General, AMC, should conduct a review to determine whether all Army equipment has
                 been assigned ARCs that are in accordance with the revised AR 735-5. This should
                 include requiring that all item managers assign the most accurate ARCs according
                 to AR 735-5. Once AMC has conducted this review and has ensured item managers
                 are coding Army equipment in accordance with AR 735-5, the Commanding General
                 AMC should develop a process for periodically validating whether the item managers
                 assigned ARCs that were in accordance with the revised AR 735-5.


                 Conclusion
                 The Army needs to improve its accountability of FP equipment. The Army allowed
                 DLA to code 17 FP components, valued at $41.96 million, with ARCs that were not
                 accurate and cost-effective. Specifically, units were not required to account for or
                 maintain FP equipment using formal property accounting procedures, and the Army
                 could not hold the units accountable for the loss of the FP equipment. The Army could
                 improve the accountability of FP equipment by clarifying AR 735-5 to identify items
                 that should be coded as nonexpendable more effectively and by reviewing all FP
                 equipment to determine if item managers assigned accurate and cost effective ARCs.




22 │ DODIG-2014-098
                                                                                          Finding B



Recommendations
Recommendation B.1
We recommend that the Deputy Chief of Staff of the Army, G-4 revise AR 735-5,
“Property Accountability Policies,” to ensure items that are not consumed in use, do
not lose their identity in use, and have a unit cost of more than $500 are assigned
nonexpendable or durable accounting requirement codes.


Recommendations B.2
We recommend the Commanding General, Army Materiel Command:

        a.	 Conduct a review to determine whether all Army equipment has been
          assigned accounting requirement codes that are in accordance with the
          revised Army Regulation 735-5 , “Property Accountability Policies,”

        b.	 Develop a process for periodically validating whether the item managers
          assigned accounting requirement codes that were in accordance with the
          revised Army Regulation 735-5, “Property Accountability Policies.”


Management Comments Required
The Deputy Chief of Staff of the Army, G-4 and the Commanding General, Army
Materiel Command, did not provide comments on the draft report. We request that
the Deputy Chief of Staff of the Army, G-4 and Commanding General, Army Materiel
Command, provide comments on the final report.




                                                                                   DODIG-2014-098 │ 23
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from October 2013 through June 2014 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our audit
                 objectives. We believe that the evidence obtained provides a reasonable basis for our
                 findings and conclusions based on our audit objective.

                 We reviewed DoD and Army criteria to gain an understanding of the regulations for the
                 accountability of Force Provider equipment in Afghanistan. Specifically, we reviewed
                 the Quartermaster Force Provider Company Field Manual No. 4-20.07, 401st AFSB
                 Property Accountability: Internal Standard Operation Procedures, AR 710-1,
                 “Centralized Inventory management of the Army Supply System,” AR 710-2, “Inventory
                 Management – Supply below the National Level,” AR 735-5, “Property Accountability
                 Policies,” DoD Instruction 5000.64, and “Accountability and Management of DoD
                 Equipment and Other Accountable Property.”

                 We reviewed and documented the deployment and issuance process for FP equipment
                 in Afghanistan. To accomplish this, we relied on meetings held with DA G4, 401st AFSB,
                 TACOM, PdM FSS, and contractors who processed FP equipment. We also reviewed
                 operational needs statements, operations orders, and other orders that facilitated the
                 deployment of FP equipment into Afghanistan. From this information, we created a
                 deployment process flowchart. We also obtained and analyzed Commodity Command
                 Standard System and LMP data queries from TACOM and combined them with
                 release orders from DA G-4 to determine the quantity, type, and value of FP modules
                 deployed to Afghanistan. We also compared the Material Release Orders, Commodity
                 Command Standard System, and LMP with the transaction history in PBUSE to
                 determine the number for FP module equivalents that 401st AFSB accounted for
                 in PBUSE and the number of FP modules equivalents not accounted for in PBUSE.

                 Additionally, we determined whether DLA assigned the correct ARC for FP equipment
                 that TACOM identified as desired for reset. We used the TACOM provided disposition
                 instructions for version C and version D to identify what TACOM required and desired
                 for reset. We then reviewed Force Provider catalogs and used Logistics Information
                 Warehouse to identify the ARCs assigned to the FP equipment required and desired
                 for reset. We reviewed Army Regulations 735-5, “Property Accountability Policies”




24 │ DODIG-2014-098
                                                                                            Appendixes



and 710-2, “Inventory Management – Supply Below the National Level” to understand
the guidance pertaining to ARCs. Using the guidance in AR 735-5 and AR 710-2, we
independently determined what the ARC should be for the FP equipment required
and desired for reset. Then, we created a spreadsheet of the required and desired
FP items that included their currently assigned ARCs and what their ARCs should be
based on the disposition instructions.

We also assessed the amount of FP equipment that had been disposed of or reported
lost on a Financial Liability Investigation of Property Loss. We met with DLA-DS,
TACOM, and 227th Quartermaster Company and reviewed DLA-DS guidance to
determine the process and procedures in place for the transferring of accountability
of FP equipment to DLA-DS and its disposal of that equipment. We used a DLA-DS
provided data query to determine the amount and condition of FP equipment that
has been processed by DLA-DS since 2002. Further, we reviewed the 401st AFSB TPE
Financial Liability Investigation of Property Loss tracker to determine the quantity,
type, and value of FP equipment lost and documented on a Financial Liability
Investigation of Property Loss from 2011 through 2013.

We reviewed and documented the Army’s retrograde process of FP equipment in
Afghanistan. To accomplish this, we interviewed personnel from TACOM, 401st AFSB,
U.S. Transportation Command, Letterkenny Army Depot, and contractors who processed
FP equipment. We obtained retrograde data provided by Program Executive Office
Combat Support and Combat Service Support, PM FSS, TACOM, and 401st AFSB
to understand the Army’s retrograde process, estimates, and tracking systems.
We created a retrograde flowchart using this information. We developed a spreadsheet
that analyzed a 401st AFSB provided Army War Reserve Deployment System data
pull of retrograded equipment to determine the quantity, type, and value of retrograded
FP equipment.

On December 7, 2013, the audit team notified the Regional Command officials of
unsecured secret and sensitive items located in an abandoned yard in Kandahar Airfield.
We discovered the unsecured secret and sensitive equipment while searching for
FP equipment. We inventoried select items at the yard, ranging from large machinery
and FP equipment to high end military electronic devices of classified and sensitive
nature. To inventory the items, we used a camera to take pictures of the item as well as
any identifiable information such as part number, serial number, NSN, and Commercial
and Government Entity codes. Using Web Federal Logistics Information Service, we
entered an item’s identifiable code into the system to generate the item’s pertinent
information such as NSN, cost, and controlled inventory item code.        We reviewed



                                                                                       DODIG-2014-098 │ 25
Appendixes



                 and cited the various Army Regulations that the unsecured secret and sensitive items
                 violated. To follow-up the audit team visited Regional Command South headquarters
                 to ensure the secret and sensitive items had been secured.


                 Use of Computer-Processed Data
                 We received computer-processed data from LMP, Commodity Command Standard
                 System, PBUSE, 401st AFSB TPE Financial Liability Investigation of Property Loss
                 Tracker, and Distribution Supply System to determine whether the Army maintained
                 proper accountability of FP equipment during the deployment, issuance, and retrograde
                 or disposal of the equipment in Afghanistan. LMP, Commodity Command Standard
                 System, PBUSE, the TPE Financial Liability Investigation of Property Loss Tracker,
                 and Distribution Supply System are used by the Army to maintain accountability and
                 visibility over wholesale and retail assets from its purchase to disposition.

                 We did not rely on the Financial Liability Investigation of Property Loss Tracker or
                 Distribution Supply System as primary support for our conclusions. Therefore, we
                 did not evaluate the sufficiency or reliability of the data within these systems. To
                 verify the reliability of the data in LMP and Commodity Command Standard System,
                 we tested transactions by comparing them to supporting documentation provided by
                 DA G-4 and TACOM. From these procedures, we determined that the documentation in
                 LMP and Commodity Command Standard System was incomplete, but was sufficiently
                 reliable when combined together for the purpose of acquiring deployment data for
                 our analysis. We focused our analysis on whether the Army adequately accounted for
                 FP equipment in PBUSE by comparing the deployment data for FP equipment to the
                 FP equipment listed in the PBUSE historical record. The data reliability weaknesses
                 we identified with PBUSE are discussed in the findings. We believe the computer
                 processed data we used were sufficiently reliable to support the findings and
                 conclusions in this report.


                 Use of Technical Assistance
                 The audit team met with members of the DoD IG Quantitative Methods Division to
                 discuss selecting a sample of FP equipment and how to test it. The discussion included
                 the possibilities of statistical testing. It was determined that any type of statistical
                 testing would not be feasible.




26 │ DODIG-2014-098
                                                                                          Appendixes




Appendix B
Prior Audit Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and Army Audit Agency issued 10 reports discussing
Government Property Accountability and equipment retrograde in Southwest Asia.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.
Unrestricted Army reports can be accessed at https://www.aaa.army.mil/.


GAO
GAO-13-185R, “Afghanistan Drawdown Preparations: DoD Decision Makers Need
Additional Analyses to Determine Costs and Benefits of Returning Excess Equipment,”
December 19, 2012

GAO-11-774, “Iraq Drawdown: Opportunities Exist to Improve Equipment Visibility,
Contract Demobilization, and Clarity of Post-2011 DoD Role,” September 16, 2011


DoD IG
DoD IG Report No. DODIG-2014-043, “The Army Needs to Improve Property
Accountability and Contractor oversight at Redistribution Property Assistance Team
Yards in Afghanistan” March 4, 2014

DoD IG Report No. DODIG-2014-007, “Defense Logistics Agency Disposition Services
Afghanistan Disposal Process Needed Improvement,” November 8, 2013

DoD IG Report No. DODIG-2012-138, “Wholesale Accountability Procedures Need
Improvement for the Redistribution Property Assistance Team Operations,” September
26, 2012

DoD IG Report No. DODIG-2012-071, “DoD’s Management of the Redistribution
Property Assistance Team Operations in Kuwait,” April 10, 2012




                                                                                     DODIG-2014-098 │ 27
Appendixes



                 Army
                 Army Audit Agency Report A-2013-0056-MTE, “Retrograde Sort Process, Afghanistan,”
                 February 26, 2013

                 Army Audit Agency Report A-2013-0048-MTE, “Materiel Management – Retrograde
                 From Southwest Asia,” February 1, 2013

                 Army Audit Agency Report A-2011-0077-ALL, “Follow-up of Retrograde Operations
                 in Iraq-Class VII Theater Provided Equipment,” April 12, 2011

                 Army Audit Agency Report A-2011-0063-ALL, “Redistribution Property Assistance
                 Teams, United States Forces - Iraq,” February 14, 2011




28 │ DODIG-2014-098
                                                                                           Appendixes




Appendix C
Roles and Responsibilities
United States Forces–Afghanistan
USFOR-A is a functioning command and control headquarters for U.S. forces operating
in Afghanistan. The USFOR-A develops and submits the operational needs statement
for the requesting unit to DA G-3 for approval.


Office of the Deputy Chief of Staff of the Army, G-3/5/7
Operation, Plans, and Training
The Office of the Deputy Chief of Staff of the Army, DA G-3 contributes to the success
of APS by designing APS force structure that is compatible with the structure of the
type of unit which will deploy to use APS equipment. DA G-3 validates the operational
need statement from the requesting unit and approves the release of APS, including FP.


Office of the Deputy Chief of Staff of the Army, G-4 Logistics
DA G-4 provides guidance on developing the APS program, which includes FP
equipment. DA G-4 ensures that APS materiel is combat ready for deploying units in
accordance with Army serviceability standards. DA G-4 also ensures that APSs are
kept at authorized levels to adequately fill unit sets; provides resources to conduct
the APS program; approves listing of equipment to be included in APS; and ensures
APS equipment requirements are identified in Army force structure, systems and
applicable documents.    After the operational needs statement is validated by the
DA G-3, the DA G-4 issues the order to release the FP equipment from APS. The DA
G-4 directs AMC to ship FP equipment in support of the operational needs statement.
DA G-4 also determined the number of FP modules that the Army will reset to fill APS.


Army Materiel Command
AMC, headquartered at Redstone Arsenal, Alabama, is the Army’s primary provider
of material readiness, technology, acquisition support, material development, logistics
power projection, and sustainment. AMC operates and maintains the APSs, including
FP, and the Army’s depots, including those storing and resetting FP equipment.
The AMC issues the operation orders to release the FP equipment from the depots
into Afghanistan.




                                                                                      DODIG-2014-098 │ 29
Appendixes



                 Army Sustainment Command
                 ASC, headquartered at Rock Island Arsenal, Illinois, is the U.S. Army’s logistics
                 integrator for contingency and sustainment support for American fighting forces
                 worldwide. ASC manages the APS, including FP, for AMC. In addition, ASC leverages
                 a global network of Army field support brigades and battalions, logistics support
                 teams, and brigade logistics support teams to provide materiel readiness visibility and
                 management, including property accountability, depot reset induction and equipment
                 redistribution.    AMC tasks the ASC to prepare FP equipment for transfer to the
                 requesting unit.


                 401st Army Field Support Brigade
                 401st AFSB, headquartered at Bagram Airfield, Afghanistan, executes, directs and
                 manages field and sustainment level logistics for U.S. and selected coalition forces in
                 Afghanistan. 401st AFSB command and controls two Army Field Support Battalions:

                          •	 the 3-401st Army Field Support Battalion, located at Bagram Airfield,
                             Afghanistan, which supports regional commands east and north; and

                          •	 the 4-401st Army Field Support Battalion, located at Kandahar Air Field,
                             Afghanistan, supports regional commands south and west.

                 401st AFSB provides ASC a forward presence by executing the APS and the TPE
                 programs.    The Army considers FP equipment to be TPE once it is deployed to
                 Afghanistan. AMC tasks ASC with ensuring that force provider equipment is transferred
                 to 401st AFSB’s TPE records through their retail accountability system, PBUSE.
                 401st AFSB is also overseeing the retrograde of TPE in Afghanistan.


                 TACOM Life Cycle Management Command
                 TACOM, a major subordinate command of AMC headquartered in Warren, Michigan,
                 unites all of the organizations that focus on soldier and ground systems throughout
                 the entire life cycle. TACOM’s mission is to develop, acquire, field, and sustain soldier
                 and ground systems for America’s warfighters.     TACOM provides the material release
                 order to one of the 401st Army Field Support Battalions located in Afghanistan. TACOM
                 will either ship FP equipment to one of the 401st Army Field Support Battalions or
                 directly to the units.




30 │ DODIG-2014-098
                                                                                            Appendixes



Letterkenny Army Depot
Letterkenny Army Depot (under the AMC chain of command) is headquartered
in Chambersburg, Pennsylvania and is responsible for producing and resetting FP
modules.   According to TACOM officials the Army sends FP equipment retrograded
from Afghanistan to the Letterkenny Army Depot to assist in the reset of FP modules.


Sierra Army Depot
The Sierra Army Depot in Herlong, California, which is managed by TACOM, is among
the U.S. locations supporting the shipment of Force Provider.     Operational Project
Stocks material are stored and maintained at the depot.


Deployed Units
Deployed units in Afghanistan maintained and accepted accountability of FP equipment
through PBUSE, when FP equipment was deployed to Afghanistan. The units should
perform a full inventory of FP equipment when FP equipment is transferred to another
unit during unit rotations. Finally, the unit uses TPE planner in PBUSE to determine
the disposition of their FP equipment during retrograde if the FP equipment was
accounted for in PBUSE.




                                                                                       DODIG-2014-098 │ 31
Appendixes




                 Appendix D
                 Components Identified for Retrograde and Reset
                 The table below lists the FP items TACOM personnel identified as cost effective to
                 retrograde out of Afghanistan for the reset of future modules.

                                                               Quantity
                                                              Required for                           Total Cost per
                           NSN           Nomenclature                        ARC       Unit Price
                                                               Reset per                                Module
                                                                Module
                                      Expeditionary Tricon
                      5419015714107   Kitchen System,              4         N     $     93,405.07   $ 373,620.28
                                      Green
                                      Fuel Distribution
                      4930016143654                                4         N     $     11,000.00   $   44,000.00
                                      System, Improved
                                      Generator Set,
                      6115014620291                               26         N     $     25,073.00   $ 651,898.00
                                      60kw, Mep 806b
                                      Latrine System,
                      5419015397178   Expeditionary,               8         N     $     50,000.00   $ 400,000.00
                                      Green
                                      Laundry,
                                      Containerized,
                      5419015397180   Batch,                       4         N     $     70,779.46   $ 283,117.84
                                      Expeditionary,
                                      Green
                                      Refrigerated
                      5419015515432   Container, Tricon,           4         N     $     19,949.00   $   79,796.00
                                      Green
                                      Waste Water
                      4630015138155   Evacuation Tank/             2         N     $     49,465.00   $   98,930.00
                                      Trailer

                      4520015666669   Heater, Water,               4         N     $     23,882.00   $   95,528.00
                                      Awh-400
                                      Shower System,
                      5419015397182   Expeditionary,               8         N     $     50,000.00   $ 400,000.00
                                      Green
                                      Shower Water
                      5419015430158   Reuse System,                4         N     $ 125,000.00      $ 500,000.00
                                      Green
                                      Distributing System,
                                      Outlet Assembly,
                      6150014701916                               96          X    $        568.18   $   54,545.28
                                      Convenience,
                                      Temper, 3 Drop
                                      As 10 Inch Airbeam
                      8340015755528                               10          X    $      1,721.93   $   17,219.30
                                      Assembly
                                      As End Section Liner,
                      8340015754842                                4          X    $        153.29   $      613.16
                                      Iso End




32 │ DODIG-2014-098
                                                                                                     Appendixes



                                         Quantity
                                        Required for                           Total Cost per
     NSN           Nomenclature                        ARC       Unit Price
                                         Reset per                                Module
                                          Module
                As End Section Liner,
8340015750614                                2          X    $        153.29   $      306.58
                Tricon
                As End Section, Iso
8340015753625                                4          X    $        658.43   $    2,633.72
                End, Green
                As End Section,
8340015750619                                2          X    $        652.87   $    1,305.74
                Tricon, Green
                Bed, Bunk
7105015522705   System W/ Fabric            320         X    $        913.00   $ 292,160.00
                Trunklockers
                Cable Assembly,
6150012205588   Power, 60 Amp,              96          X    $        985.43   $   94,601.28
                100 Ft Long
                Cable Assembly,
6150002558313   Power, 60 Amp,              56          X    $        572.27   $   32,047.12
                50 Ft Long
                Cable Assembly,
6150012566304   Service, 100A,              28          X    $      3,220.00   $   90,160.00
                50 Ft Long
                Compressor, Air,
A001-05-0058                                 8          X    $        480.46   $    3,843.68
                Diesel, 17 Cfm
                Container, Reusable,
8145014154113   Bulk Equipment,              2          X    $      1,155.50   $    2,311.00
                Small
                Container, Shipping
                And Storage-Triple
8150015287531                               43         N     $      4,523.00   $ 194,489.00
                (Tricon) With
                Connectors, Green
                Electrical Power
6110015547406                               26          X    $      8,107.52   $ 210,795.52
                Distribution Box
                Environmental
4120016171273   Control Unit,               56         N     $     17,787.00   $ 996,072.00
                F100-60
                Pump Assembly,
4320015806934   Containerized               16         N     $      4,552.00   $   72,832.00
                Shower
                Shelf, Shipping And
8145015034404                               78          X    $         44.33   $    3,457.74
                Storage
9540014913804   Shoring Beam                160         X    $         62.96   $   10,073.60
                Tent, Temper
                Air Supported
8340015593852   Structure,                  36          X    $     20,407.33   $ 734,663.88
                Type XXXI, 32 Ft,
                Green




                                                                                                DODIG-2014-098 │ 33
Appendixes



                                                               Quantity
                                                              Required for                           Total Cost per
                           NSN           Nomenclature                        ARC       Unit Price
                                                               Reset per                                Module
                                                                Module
                                      Tent, Temper
                                      Air Supported
                      8340015588698   Structure,                   4          X    $     21,381.53   $   85,526.12
                                      Type XXXIV, 32 Ft,
                                      Green
                                      Tent, Temper
                                      Air Supported
                      8340015588701   Structure,                   4          X    $     22,089.00   $   88,356.00
                                      Type XXXVII, 32 Ft,
                                      Green
                                      Tent, Temper
                                      Air Supported
                      8340015588703   Structure,                   8          X    $     18,705.56   $ 149,644.48
                                      Type XXXVIII, 21 Ft,
                                      Green
                                      Tool Kit, General
                      5180014830249                                4         N     $      1,805.00   $    7,220.00
                                      Mechanics
                                      Temper Electrical
                      6110012510402   Distribution Box,           52          X    $      1,702.77   $   88,544.04
                                      Type III, 120v
                                      Expeditionary Tricon
                      5419015714108                                4         N     $     93,405.07   $ 373,620.28
                                      Kitchen System, Tan
                                      Latrine System,
                      5419015397179                                8         N     $     50,000.00   $ 400,000.00
                                      Expeditionary, Tan
                                      Laundry,
                                      Containerized,
                      5419015397181                                4         N     $     70,779.46   $ 283,117.84
                                      Batch,
                                      Expeditionary, Tan
                                      Refrigerated
                      5419015515431   Container, Tricon,           4         N     $     19,949.00   $   79,796.00
                                      Tan
                                      Shower System,
                      5419015397183                                8         N     $     50,000.00   $ 400,000.00
                                      Expeditionary, Tan
                                      Shower Water
                      5419015469681                                4         N     $ 125,000.00      $ 500,000.00
                                      Reuse System
                                      As End Section, Iso
                      8340015750631                                4          X    $        658.43   $    2,633.72
                                      End, Tan
                                      As End Section,
                      8340015750628                                2          X    $        652.87   $    1,305.74
                                      Tricon, Tan
                                      Environmental
                      4120016171282   Control Unit,               56         N     $     17,787.00   $ 996,072.00
                                      F100-60
                                      Tent, Temper
                                      Air Supported
                      8340015584701                               36          X    $     20,407.33   $ 734,663.88
                                      Structure,
                                      Type XXXI, 32 Ft, Tan




34 │ DODIG-2014-098
                                                                                                         Appendixes



                                             Quantity
                                            Required for                           Total Cost per
       NSN              Nomenclature                       ARC       Unit Price
                                             Reset per                                Module
                                              Module
                     Tent, Temper
                     Air Supported
 8340015584699       Structure,                  4          X    $     21,381.53   $   85,526.12
                     Type XXXIV, 32 Ft,
                     Tan
                     Tent, Temper
                     Air Supported
 8340015584702       Structure,                  4          X    $     22,089.00   $   88,356.00
                     Type XXXVII, 32 Ft,
                     Tan
                     Tent, Temper
                     Air Supported
 8340015584703       Structure,                  8          X    $     18,705.56   $ 149,644.48
                     Type XXXVIII, 21 Ft,
                     Tan

Legend
(X) 	 Expendable
(N)	 Nonexpendable




                                                                                                    DODIG-2014-098 │ 35
Appendixes




                 Appendix E
                 Components the Army Should Recode
                 The table below illustrates the 7 FP components that the Army should recode in the
                 Version C and D FP modules to maximize accountability and recoverability of the items.

                                                                     Quantity
                                            Versions/    Original   Required for                 Total Costs
                            Item           Colors that                             Unit Price
                                                          ARC        Reset per                   Per Module
                                         Included Item                Module
                      Distributing
                      System, Outlet     C and D (T&G)      X           96             $568.18    $54,545.28
                      Assembly
                      60 AMP Power
                      Cable Assembly,    C and D (T&G)      X           96             $985.43    $94,601.28
                      100 Foot
                      60 AMP Power
                      Cable Assembly,    C and D (T&G)      X           56             $572.27    $32,047.12
                      50 Foot
                      100 AMP Service
                      Cable Assembly,    C and D (T&G)      X           28           $3,220.00    $90,160.00
                      50 Foot
                      Reusable Bulk
                      Equipment          D (T&G)            X            2           $1,155.50     $2,311.00
                      Container
                      Electrical Power   C and D (T&G)      X           26           $8,107.52   $210,795.52
                      Distribution Box
                      120V Electrical    D (T&G)            X           52           $1,702.77    $88,544.04
                      Distribution Box

                 Legend
                 (G) 	 Green FP module
                 (T)	 Tan FP module
                 (X)	 Expendable




36 │ DODIG-2014-098
                                                                                                        Appendixes




Appendix F
Components Recoded by the Army
The table below illustrates the 10 FP components that the Army incorrectly coded in
the version C and D FP modules.

                         Versions/                          Quantity
                        Colors that   Original   Correct    Required                 Total Costs
       Item                                                             Unit Price
                          Include      ARC        ARC       for Reset                Per Module
                            Item                           per Module
 Bunk Bed System        D (T&G)          X         D          320         $913.00    $292,160.00
 Tent, Type XXXI,       C and D (G)      X         N          36        $20,407.33   $734,663.88
 32 Foot, Green
 Tent, Type XXXIV,      C and D (G)      X         N           4        $21,381.53    $85,526.12
 32 Foot, Green
 Tent, Type
 XXXVII, 32 Foot,       D (G)            X         N           4        $22,089.00    $88,356.00
 Green
 Tent, Type
 XXXVIII, 21 Foot,      C and D (G)      X         N           8        $18,705.56   $149,644.48
 Green
 Tent Liner, Type
 XXXVIII, Type C,       D (G)            X         N           2         $4,196.02     $8,392.04
 Green
 Tent, Type XXXI,       C and D (T)      X         N          36        $20,407.33   $734,663.88
 32 Foot, Tan
 Tent, Type XXXIV,      C and D (T)      X         N           4        $21,381.53    $85,526.12
 32 Foot, Tan
 Tent, Type
 XXXVII, 32 Foot,       D (T)            X         N           4        $22,089.00    $88,356.00
 Tan
 Tent, Type
 XXXVIII, 21 Foot,      C and D (T)      X         N           8        $18,705.56   $149,644.48
 Tan

Legend
(G) 	 Green FP module
(T)	 Tan FP module
(X)	 Expendable
(D)	 Durable
(N)	 Nonexpendable




                                                                                                   DODIG-2014-098 │ 37
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                         AFSB Army Field Support Brigade
                         AMC Army Materiel Command
                          APS Army Prepositioned Stocks
                           AR Army Regulation
                          ARC Accounting Requirements Code
                          ASC Army Sustainment Command
                       DA G-3 Office of the Deputy Chief of Staff of the Army, G-3/5/7 Operations, Plans,
                              and Training branch
                       DA G-4 Office of the Deputy Chief of Staff of the Army, G-4 Logistics
                          DLA Defense Logistics Agency
                       DLA-DS Defense Logistics Agency–Disposition Service
                            FP Force Provider
                           LIN Line Item Number
                          LMP Logistics Modernization Program
                          NSN National Stock Number

                          ONS Operational Needs Statement
                        PBUSE Property Book Unit Enhanced
                      PdM FSS Product Manager Force Sustainment Systems
                       TACOM TACOM Lifecycle Management Command
                          TPE Theater Provided Equipment
                      USFOR-A United States Forces–Afghanistan




38 │ DODIG-2014-098
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
